    Semiannual
      Report to
      Congress
October 1, 2010–March 31, 2011
                  OIG-CA-11-005


     Office of Inspector General
    Department of the Treasury
Highlights
During this semiannual reporting period, the Office of Audit issued 65 products, and recommended that
$19.6 million in funds be put to better use. The work by the Office of Investigations resulted in 9 arrests
and 8 convictions. Some of our significant results for the period are described below.
• We completed a review with the Offices of Inspector General (OIG) of the Federal Deposit
    Insurance Corporation (FDIC) and the Board of Governors of the Federal Reserve System (FRB) of
    the Joint Implementation Plan for the transfer of Office of Thrift Supervision (OTS) functions to
    the Office of the Comptroller of the Currency (OCC) and other federal banking regulators. That
    plan, prepared by OCC, OTS, FDIC, and FRB, and our review, were required by the Dodd-Frank
    Wall Street Reform and Consumer Protection Act. We concluded that the plan generally conforms
    to the provisions of the act, but noted that the plan did not address the prohibition against
    involuntary separation or relocation of transferred OTS employees for 30 months. We also reported
    that certain details of the plan need to be worked out to ensure that OTS employees are not unfairly
    disadvantaged and an orderly transfer of OTS’s powers, authority, and employees can be effectively
    accomplished.
• KPMG LLP, under our oversight, issued an unqualified opinion on the Department of the
    Treasury’s fiscal year 2010 financial statements. The auditor reported 4 significant deficiencies. One
    significant deficiency related to financial systems and reporting at the Internal Revenue Service is
    considered a material weakness. The other 3 significant deficiencies are related to the Department’s
    financial management practices, the Office of Financial Stability’s financial accounting and reporting,
    and the Financial Management Service’s information system controls.
• In January 2011, we and the FRB OIG jointly responded to a congressional request for information
    on Treasury’s activities related to the standing up of the Consumer Financial Protection Bureau
    (CFPB) and the Secretary of the Treasury’s authorities under the Dodd-Frank Act with respect to
    CFPB until a Director is confirmed by the Senate. CFPB was established by the Dodd-Frank Act as
    an independent bureau within FRB.
•   We were informed that an individual was creating and passing fraudulent checks totaling
    approximately $1 million through the Treasury Direct Program while utilizing a Treasury bank
    routing number on each fraudulent check. As a result of an OIG investigation, the individual was
    indicted in federal court in October 2010 on 16 counts of wire, bank, and mail fraud violations. The
    individual pled guilty to 1 count of bank fraud; sentencing is pending.
• In another scheme involving Treasury Direct, OIG special agents executed an arrest warrant to an
    individual attempting to flee the country from the Dulles International Airport. The individual was
    later indicted. Additionally, the U.S. Attorney’s Office issued seizure warrants for five fraudulent
    Treasury Direct accounts which resulted in the recovery of over $781,000.

This semiannual report includes a section “Bank Failures and Nonmaterial Loss Reviews” to fulfill our
reporting requirement in section 987 of the Dodd-Frank Act related to reviews by our office of failed
Treasury-regulated financial institutions with losses to the Deposit Insurance Fund that are under $200
million. We performed 11 nonmaterial reviews during this reporting period.

Treasury Office of Inspector General Semiannual Report—March 2011                      i
Message From the Inspector General
In our Semiannual report for September 30, 2010, I highlighted some of the new programs and
responsibilities that both Treasury and my office have been given as the Administration and the
Congress continue to address the Nation’s efforts to recover from the financial crisis and deep
recession. Over the past 6 months my office has been busy addressing those new responsibilities, as well
as continuing to meet our mandate to conduct failed bank reviews.

As required by the Dodd-Frank Act, we have established the Council of Inspectors General for
Financial Oversight (CIGFO), which I chair. CIGFO is now fully functioning and recently I had the
opportunity to address the Financial Stability Oversight Council (FSOC) chaired by Secretary Geithner
to give them an overview of CIGFO and our roles and responsibilities. I emphasized that while CIGFO
has authority to oversee the activities of FSOC, we can also be a valuable resource for objective
assessment of the current regulatory structure. For example, CIGFO membership includes all the
Inspectors General that have responsibility to conduct reviews of failed federally regulated banks. This
body of work has given us considerable insight into the most common systemic weaknesses in managing
risk that led to the failure of so many of these institutions as well as supervisory weaknesses on the part
of the federal regulators.

Dodd-Frank also established the Consumer Financial Protection Bureau (CFPB). Although the Federal
Reserve Board OIG has authority for oversight of CFPB, Dodd-Frank stipulates that until a Director is
confirmed, the Treasury Secretary is responsible for the activities of the CFPB. We have been working
jointly with the Federal Reserve Board OIG to perform ongoing oversight of Treasury’s efforts to stand
up this new bureau.

On September 27, 2010, the President signed into law the Small Business Jobs Act which created within
Treasury the $30 billion Small Business Lending Fund (SBLF) and the $1.5 billion State Small Business
Credit Initiative. My office is responsible for the oversight of these two programs. As required by the
Act, I appointed a Special Deputy for SBLF Oversight, who reports directly to me, and she has begun to
hire staff and initiate audits of SBLF.

Recently, Treasury announced that it would start to sell off its remaining $142 billion Fannie Mae and
Freddie Mac mortgage-backed securities portfolio. We will be conducting oversight of this activity as
well as other financial assistance provided through Treasury to Fannie Mae and Freddie Mac.

We continue to meet our mandate to perform reviews of all failed Treasury regulated institutions. While
the rate of bank failures has slowed, we still have a substantial inventory of these reviews in process. We
will also continue conducting our proactive audits and investigations of the American Recovery and
Reinvestment Act (Recovery Act) recipients. To date, in Treasury’s two major Recovery Act programs,
Low Income Housing and Specified Energy Properties, Treasury has disbursed over $10 billion. Our
focus initially has been on the Specified Energy Properties program. So far, we have initiated reviews of
60 Recovery Act payment recipients.


Treasury Office of Inspector General Semiannual Report—March 2011                      ii
                                                               Message From the Inspector General


Furthermore, I am pleased to report that during this Semiannual period, we entered into a memorandum
of understanding with the Office of the Comptroller of the Currency, Treasury’s national bank
regulator. The memorandum of understanding ensures that our office will have the necessary access to
information and personnel during the conduct of an investigation or inquiry involving bank fraud that
falls under our jurisdiction. Such access is absolutely critical so that my office can fully exercise its
oversight responsibility for the integrity of the bank supervision process.

Since the beginning of the financial crisis, Treasury has continued to play a major role in the federal
government’s efforts to help stabilize the financial system and get the economy growing again. Treasury
has been given an ever growing list of new programs and responsibilities to administer. We will continue
to prioritize our resources in order to provide effective oversight to the most significant and highest risk
Treasury programs and operations under our jurisdiction.




Eric M. Thorson
Inspector General




                  Treasury Office of Inspector General Semiannual Report—March 2011                       iii
Contents

Highlights ..................................................................................................................................... i 
Message From the Inspector General ...................................................................................... ii 
Office of Inspector General Overview ...................................................................................... 1 
Treasury’s Management and Performance Challenges .......................................................... 3 
Office of Audit - Significant Audits and Other Products ........................................................ 8 
       Financial Management .................................................................................................................................8 
       Information Technology..............................................................................................................................11 
       Programs and Operations ..........................................................................................................................12 
           Failed Bank Reviews .............................................................................................................................12 
           Nonmaterial Loss Reviews ....................................................................................................................13 
           Other Performance Audits .....................................................................................................................14 
           Other Reviews .......................................................................................................................................16 
Office of Investigations - Significant Investigations ............................................................. 18 
Office of SBLF Program Oversight ......................................................................................... 22 
Other OIG Accomplishments and Activity ............................................................................. 25 
Statistical Summary ................................................................................................................. 27 
       Summary of OIG Activity ............................................................................................................................27 
       Significant Unimplemented Recommendations ..........................................................................................28 
       Summary of Instances Where Information Was Refused ...........................................................................30 
       Listing of Audit Products Issued .................................................................................................................30 
       Audit Reports Issued With Questioned Costs ............................................................................................35 
       Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................36 
       Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................36 
       Significant Revised Management Decisions ..............................................................................................36 
       Significant Disagreed Management Decisions ...........................................................................................37 
       Peer Reviews .............................................................................................................................................37 
Bank Failures and Nonmaterial Loss Reviews ...................................................................... 39 
References to the Inspector General Act ............................................................................... 41 
Abbreviations ............................................................................................................................ 42 
This page intentionally left blank.
                                                       financial management, information technology,
Office of Inspector General                            and financial assistance audits.
Overview                                               The Office of Investigations, under the
The Department of the Treasury’s Office of             leadership of the Assistant Inspector General
Inspector General (OIG) was established                for Investigations, performs investigations and
pursuant to the 1988 amendments to the                 conducts initiatives to detect and prevent fraud,
Inspector General Act of 1978. OIG is headed           waste, and abuse in Treasury programs and
by an Inspector General appointed by the               operations under our jurisdiction. It also
President, with the advice and consent of the          manages the Treasury OIG Hotline to facilitate
Senate. Serving with the Inspector General in          reporting of allegations involving Treasury
the immediate office is a Deputy Inspector             programs and activities.
General.
                                                       The Office of SBLF Program Oversight, under
OIG performs independent, objective reviews            the leadership of a Special Deputy Inspector
of Treasury programs and operations, except            General, conducts, supervises, and coordinates
for those of the Internal Revenue Service (IRS)        audits and investigations of the SBLF program
and the Troubled Asset Relief Program (TARP),          and State Small Business Credit Initiative
and keeps the Secretary of the Treasury and            (SSBCI).
Congress fully informed of problems,
deficiencies, and the need for corrective action.      The Office of Counsel, under the leadership of
The Treasury Inspector General for Tax                 the Counsel to the Inspector General, provides
Administration (TIGTA) performs oversight              legal advice to the Inspector General and all
related to IRS. A Special Inspector General and        OIG components. The office represents the
the Government Accountability Office perform           OIG in all legal proceedings and provides a
oversight related to TARP.                             variety of legal services including (1) processing
                                                       all Freedom of Information Act and Giglio
OIG has five components: (1) Office of Audit,          requests; (2) conducting ethics training;
(2) Office of Investigations, (3) Office of Small      (3) ensuring compliance with financial
Business Lending Fund (SBLF) Program                   disclosure requirements; (4) reviewing proposed
Oversight; (4) Office of Counsel, and (5) Office       legislation and regulations; (5) reviewing
of Management. OIG is headquartered in                 administrative subpoena requests; and
Washington, DC, and has an audit office in             (6) preparing for the Inspector General’s
Boston, Massachusetts.                                 signature, cease and desist letters to be sent to
                                                       persons and entities misusing the Treasury seal
The Office of Audit, under the leadership of the       and name.
Assistant Inspector General for Audit, performs
and supervises audits, attestation engagements,        The Office of Management, under the
and evaluations. The Assistant Inspector               leadership of the Assistant Inspector General
General for Audit has two deputies. One is             for Management, provides services to maintain
primarily responsible for performance audits,          the OIG administrative infrastructure.
and the other is primarily responsible for


                  Treasury Office of Inspector General Semiannual Report—March 2011                     1
                                                            Office of Inspector General Overview

As of March 31, 2011, OIG had 158 full-time
staff. OIG’s fiscal year 2011 appropriation is
$29.6 million.




                  Treasury Office of Inspector General Semiannual Report—March 2011            2
                                                       Secretary, is to identify risks to financial stability
Treasury’s Management and                              that could arise from the activities of large,
Performance Challenges                                 interconnected financial companies; respond to
                                                       any emerging threats to the financial system;
In accordance with the Reports Consolidation           and promote market discipline. CIGFO, which
Act of 2000, the Treasury Inspector General            is chaired by the Treasury Inspector General,
annually provides the Secretary of the Treasury        facilitates information sharing among inspectors
with his perspective on the most serious               general with a focus on reporting concerns that
management and performance challenges facing           may apply to the broader financial sector and
the Department. In a memorandum to Secretary           ways to improve financial oversight. CIGFO
Geithner dated October 22, 2010, Inspector             may also vote to convene a working group to
General Thorson reported four management               evaluate the effectiveness and internal
and performance challenges. The following is an        operations of FSOC.
abridged version of that memorandum.
                                                       The Dodd-Frank Act established two new
Transformation of Financial Regulation                 offices within Treasury: The Office of Financial
                                                       Research and the Federal Insurance Office. The
Congress passed the Dodd-Frank Wall Street             Office of Financial Research is to be a data
Reform and Consumer Protection Act (Dodd-              collection, research, and analysis arm of FSOC.
Frank ) in July 2010. The Dodd-Frank Act               The Federal Insurance Office is to monitor the
established a number of new responsibilities for       insurance industry, including identifying gaps or
Treasury.                                              issues in the regulation of insurance that could
                                                       contribute to a systemic crisis in the insurance
Among those near term responsibilities and             industry or financial system.
related challenges is Treasury’s role in standing
up the Consumer Financial Protection Bureau            Intended to streamline the supervision of
(CFPB). Eventually, when a director is                 depository institutions and holding companies,
confirmed, CFPB will become an independent             the Dodd-Frank Act requires the transfer of the
bureau of the Board of Governors of the                powers and duties of the Office of Thrift
Federal Reserve System (FRB). In the interim,          Supervision (OTS) to the Office of the
Treasury is charged with supporting the creation       Comptroller of the Currency (OCC), FRB, and
and management of it. Accordingly, while               the Federal Deposit Insurance Corporation
CFPB remains in Treasury, it will be subject to        (FDIC) no later than July 2011. Our office,
our audit and investigative oversight.                 FDIC OIG, and FRB OIG are required to
Furthermore, during the interim, it should also        jointly oversee and periodically report on the
be noted that we are coordinating those                transfer of OTS functions.
oversight efforts with the FRB OIG.
                                                       Clearly, the intention of the Dodd-Frank Act is
The Dodd-Frank Act also established the                most notably to prevent, or at least minimize,
Financial Stability Oversight Council (FSOC),          the impact of a future financial sector crisis on
and the Council of Inspectors General on               the U.S. economy. In order to accomplish this,
Financial Oversight (CIGFO). The mission of            the act has placed a great deal of responsibility
FSOC, which is chaired by the Treasury

                  Treasury Office of Inspector General Semiannual Report—March 2011                         3
                                                 Treasury’s Management and Performance Challenges

within Treasury and on the Treasury Secretary.              Management of Treasury’s Authorities
The management challenge from our
                                                            Intended to Support and Improve the
perspective is to implement an effective FSOC
process supported by the newly created offices              Economy
within Treasury and the streamlined banking
                                                            Congress provided Treasury with broad
regulatory structure that timely identifies and
                                                            authorities to address the financial crisis under
strongly responds to emerging risks. This is
                                                            the Housing and Economic Recovery Act and
especially important in times of economic
                                                            the Emergency Economic Stabilization Act,
growth and financial institution profitability
                                                            both enacted in 2008, the American Recovery
when such government action is likely to be
                                                            and Reinvestment Act of 2009 (Recovery Act),
unpopular. Our work plans will include reviews
                                                            and the Small Business Jobs Act of 2010.
of Treasury’s effectiveness in establishing the
                                                            Certain authorities in the Housing and
new offices and its other critical roles.
                                                            Economic Recovery Act and Emergency
                                                            Economic Stabilization Act have expired, but
The other regulatory challenges that we
                                                            challenges remain in managing Treasury’s
previously reported remain. Specifically, since
                                                            outstanding investments. To an extent,
September 2007, and as of October 22, 2010, 93
                                                            Treasury’s program administration under these
Treasury-regulated financial institutions have
                                                            two acts has matured. In contrast, program
failed, with estimated losses to the Deposit
                                                            administration for the Recovery Act is evolving,
Insurance Fund (DIF) of approximately
                                                            and the Small Business Jobs Act programs must
$36 billion. 1 Although many factors contributed
                                                            be stood up. The following discussion begins
to the turmoil in the financial markets, our work           with the most recent act passed to support and
found that OCC and OTS did not identify early               improve the economy and moves on to the
or force timely correction of unsafe and                    other new programs for which Treasury is
unsound practices by institutions under their               responsible.
supervision. The irresponsible lending practices
of many institutions are now well-recognized—
                                                            Management of the Small Business Lending Fund
including reliance on risky products, such as
                                                            and State Small Business Credit Initiative
option adjustable rate mortgages, and the
degradation of underwriting standards. At the               In September 2010, Congress enacted the Small
same time, financial institutions engaged in                Business Jobs Act. It created within Treasury
other high-risk activities, including high asset            the $30 billion SBLF and provided $1.5 billion
concentrations in commercial real estate and                to be allocated by Treasury to states for eligible
overreliance on unpredictable brokered deposits             state programs through the SSBCI. The act is
to fund rapid growth.                                       intended to increase lending to small business
                                                            and thereby support job creation. The challenge
                                                            for Treasury will be to get these two programs
                                                            up and running quickly while maintaining
                                                            proper control to ensure transparency, equitable
1 As of March 31, 2011, 101 Treasury-regulated financial    treatment of all participants, and achieving
institutions have failed since September 2007 with total
estimated losses to the DIF of approximately $36.6
                                                            program results.
billion.


                     Treasury Office of Inspector General Semiannual Report—March 2011                       4
                                           Treasury’s Management and Performance Challenges

Under SBLF, in consultation with the regulator,         beneficiaries and others, and payments to U.S.
Treasury will make capital investments in               territories for distribution to their citizens.
eligible financial institutions. Under certain
conditions, eligible institutions can refinance         Many of these programs were new to Treasury
securities issued under TARP’s Capital Purchase         in 2009. It is estimated that Treasury’s Recovery
Program. During the first 4½ years of                   Act payments in lieu of tax credit programs—
Treasury’s SBLF investment, participating               for specified energy property and to states for
institutions will pay dividends to Treasury of          low-income housing projects—will cost more
5 percent, but that rate may be reduced to              than $20 billion. As of October 22, 2010,
1 percent. After 4½ years, the dividend rate            Treasury has awarded more than $6 billion
increases to 9 percent and Treasury is to be            under these programs and has yet to implement
repaid within 10 years.                                 comprehensive monitoring procedures. 2 In
                                                        2009, we reported that Treasury dedicated only
It is important that a strong control structure         a small number of staff to award and monitor
with commensurate staffing be provided on the           these funds. That has not changed and our
front end of this effort. It is also critical in        concerns remain.
setting up this program that Treasury build on
its experience with the Capital Purchase                Management of the Housing and Economic
Program. Furthermore, Treasury and regulators           Recovery Act and the Emergency Economic
must coordinate to ensure that participating            Stabilization Act
institutions comply with the terms and
conditions of the investments, to include               Under the Housing and Economic Recovery
validation of increased small business lending in       Act, Treasury continues to address the financial
return for reduced dividend rates on Treasury           condition of Fannie Mae and Freddie Mac
investments.                                            which are under the conservatorship of the
                                                        Federal Housing Finance Agency. To cover the
Treasury has announced individual SSBCI                 losses of the two entities and to maintain their
funding allocations totaling $1.5 billion for the       positive net worth, Treasury purchased senior
50 states, the District of Columbia, and U.S.           preferred stock in Fannie Mae and Freddie Mac.
territories, intended to support new small              As reported in our memorandum, as of June 30,
business lending through local programs.                2010, Treasury purchased $145 billion of senior
                                                        preferred stock in the two entities. Treasury also
Management of Recovery Act Programs                     purchased and is still holding $184 billion of
                                                        mortgage-backed securities issued by Fannie
Treasury is responsible for overseeing an               Mae and Freddie Mac under a temporary
estimated $150 billion of Recovery Act funding          purchase program that expired in December
and tax relief. Treasury’s specific Recovery Act
program activities include grants for specified
energy property in lieu of tax credits, grants to
states for low-income housing projects in lieu of
tax credits, Community Development Financial            2As of March 31, 2011, Treasury has awarded more than
Institutions Fund grants and tax credits,               $10 billion under the payments in lieu of tax credit
                                                        programs.
economic recovery payments to social security

                   Treasury Office of Inspector General Semiannual Report—March 2011                        5
                                                Treasury’s Management and Performance Challenges

2009. 3 Even with this assistance, both entities           participate in efforts to ensure compliance with
remain in a weakened financial condition and               BSA, including the five federal banking
may require prolonged assistance.                          regulators, IRS, the Securities and Exchange
                                                           Commission, the Department of Justice, and
TARP, established under the Emergency                      state regulators. Many of these entities also
Economic Stabilization Act, gave Treasury the              participate in efforts to ensure compliance with
authorities intended to bolster credit availability        U.S. foreign sanctions programs administered
and address other serious problems in the                  by Treasury’s Office of Foreign Assets Control.
domestic and world financial markets. Through              Accordingly, Treasury must coordinate the
its TARP programs, Treasury purchased direct               efforts of these multiple entities. To this end,
loans and equity investments in many large                 FinCEN and the Office of Foreign Assets
financial institutions and other businesses, and           Control have entered into memoranda of
guaranteed other troubled mortgage-related and             understanding with many federal and state
financial assets. On October 3, 2010, the                  regulators in an attempt to build a consistent
authority to make new investments under the                and effective process. While these memoranda
TARP program expired. Treasury will, however,              promote coordination and cooperation, they are
continue making payments for programs with                 nonbinding and carry no penalties for
existing contracts and commitments. TARP is                violations. Furthermore, the USA Patriot Act
expected to be less costly than first thought. As          has increased the types of financial institutions
of the date of the memorandum, Treasury was                required to file BSA reports. In fiscal year 2009,
estimating that the total cost of TARP would be            financial institutions filed approximately 15
about $50 billion. As the life-cycle of TARP               million BSA reports. FinCEN needs to work
matures and winds down, Treasury must now                  with regulators to ensure that financial
focus on managing and exiting from its TARP                institutions establish effective BSA compliance
investments.                                               programs and file BSA reports, as required.

Anti-Money Laundering and Terrorist                        Adding to this risk is that financial institutions
                                                           and their regulators may have decreased their
Financing/Bank Secrecy Act
                                                           attention to BSA and Office of Foreign Assets
Enforcement                                                Control program compliance as they focus
Treasury faces unique challenges in carrying out           more on safety and soundness concerns during
its responsibilities under the Bank Secrecy Act            the current economic crisis.
(BSA) and USA Patriot Act to prevent and
detect money laundering and terrorist financing.           FinCEN also has a particularly difficult
The Financial Crimes Enforcement Network                   challenge in dealing with money services
(FinCEN) is the Treasury bureau responsible                businesses (MSB). Since IRS serves as the
for administering BSA. However, a large                    examining agency for MSBs, FinCEN has been
number of other federal and state entities                 working with IRS to ensure MSBs comply with
                                                           BSA requirements. However, IRS does not have
3 As of March 31, 2011, Treasury purchased $156 billion    the resources necessary to annually inspect all
of senior preferred stock and held $142 billion of         MSBs or to identify unregistered MSBs,
mortgaged-backed securities in Fannie Mae and Freddie      estimated to be in the tens of thousands. Within
Mac.
                                                           this context, FinCEN has been concerned with

                     Treasury Office of Inspector General Semiannual Report—March 2011                          6
                                            Treasury’s Management and Performance Challenges

MSBs that use informal value transfer systems           Common Identity Management System
and with those that issue, redeem, or sell
prepaid (or stored value) cards.                        OMB identified Treasury’s Consolidated
                                                        Enterprise Identity Management system as a
In September 2010, to add transparency to               high-risk project. This system is a $147 million
possible illicit wire transfer use of the financial     effort to implement the requirements of
system, FinCEN proposed a regulatory                    Homeland Security Presidential Directive 12.
requirement for certain depository institutions         The system has also been identified as being
and MSBs to report cross-border electronic              more than $40 million over budget and
transmittals of funds. The purpose is to                significantly behind schedule.
establish a centralized database to assist law
enforcement in detecting transnational                  Data Center Consolidation
organized crime, multinational drug cartels,
terrorist financing, and international tax evasion.     OMB began the Federal Data Center
If this proposal is implemented, ensuring that          Consolidation Initiative to consolidate the
financial institutions comply with the cross-           number of federal data centers. Treasury has
border electronic transmittals of funds reporting       over 60 data centers around the country.
requirements and managing the database will be          Treasury plans to ultimately reduce the number
a significant challenge.                                of its data centers by 2015. This reduction
                                                        would require Treasury to restructure its IT
                                                        infrastructure over a relatively short time.
Management of Capital Investments
Managing large capital investments, particularly        BSA IT Modernization
information technology (IT) investments, is a
difficult challenge for any organization, public        Treasury, through FinCEN, is undertaking a
or private. In prior years, we reported on a            project known as BSA IT Modernization.
number of capital investment projects that had          Already underway, the project is expected to
either failed or had serious problems. This year,       cost about $120 million. A prior attempt, from
we identified challenges in four ongoing                2004 to 2006, to develop a new BSA system
investments, two of which were identified by            ended in failure with over $17 million wasted
the Office of Management and Budget (OMB)               because of shortcomings in project planning,
as high-risk projects.                                  management, and oversight.

Replacement of Telecommunications Platform              Treasury’s decentralized management of IT
                                                        investments presents a significant hurdle to the
OMB rated Treasury’s Information Technology             successful implementation of major
Infrastructure Telecommunications investment,           department-wide and government-wide
with an overall value of $3.7 billion, as high-risk.    initiatives.
Treasury’s Acting Chief Information Officer
rated it as poorly performing.




                   Treasury Office of Inspector General Semiannual Report—March 2011                       7
                                                               In connection with its audit of Treasury’s
Office of Audit - Significant                                  consolidated financial statements, KPMG LLP
Audits and Other Products                                      issued a management letter that identified other
                                                               matters involving internal control and Treasury
Financial Management                                           operations related to (1) the compilation of the
                                                               Department’s consolidated financial statements,
Financial Audits                                               (2) the reconciliation of the Statement of
                                                               Budgetary Resources to budget reports,
Consolidated Financial Statements                              (3) monitoring of Grants for Specified Energy
                                                               Property in Lieu of Tax Credits, (4) service
KPMG LLP, an independent public accountant,
                                                               provider reviews, (5) financial reporting
working under our supervision, issued an
                                                               standards for Treasury’s component entities,
unqualified opinion on the Department’s fiscal
                                                               and (6) access controls. (OIG-11-061)
years 2010 and 2009 consolidated financial
statements. The audit identified significant
                                                               Other Financial Statement Audits
deficiencies related to (1) financial systems and
reporting at IRS, (2) financial management                     The Chief Financial Officers Act of 1990, as
practices at the Departmental level, (3) financial             amended by the Government Management
accounting and reporting at the Office of                      Reform Act of 1994, requires annual financial
Financial Stability, and (4) information system                statement audits of Treasury and any
controls at the Financial Management Service                   component entities designated by OMB. In this
(FMS). The significant deficiency related to                   regard, OMB designated IRS for annual
financial systems and reporting at IRS is                      financial statement audits. The financial
considered a material weakness. KPMG LLP                       statements of certain other Treasury component
also reported that the Department’s financial                  entities are audited pursuant to other
management systems did not substantially                       requirements, their materiality to Treasury’s
comply with the requirements of the Federal                    consolidated financial statements, or as a
Financial Management Improvement Act of                        management initiative.
1996 related to federal financial management
system requirements and applicable federal
accounting standards. In addition, the audit
identified a reportable instance of
noncompliance with laws and regulations
related to section 6325 4 of the Internal Revenue
Code. (OIG-11-031)


4 The Internal Revenue Code grants IRS the power to file
a lien against the property of any taxpayer who neglects
or refuses to pay all assessed federal taxes. Section 6325
requires IRS to release a federal tax lien within 30 days
after the date the tax liability is satisfied, or has become
legally unenforceable, or the Secretary of the Treasury has
accepted a bond for the assessed tax.


                      Treasury Office of Inspector General Semiannual Report—March 2011                       8
                                                                Office of Audit – Significant Audits and Other Products

The following table shows audit results for fiscal years 2010 and 2009.

Treasury-audited financial statements and related audits
                                     Fiscal year 2010 audit results                                   Fiscal year 2009 audit results

                                                        Material          Other                                          Material                Other
                                                        weak-             significant                                    weak-                   significant
Entity                               Opinion            nesses            deficiencies                Opinion            nesses                  deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 1                                     3                UQ                        2                   2
Internal Revenue Service (A)            UQ                 2                                     1                UQ                        2                   0
Other required audits
Department of the Treasury’s
Special-Purpose Financial
Statements                                       UQ                 0                            0                  Q                       1                   0
Office of Financial Stability
(TARP) (A)                                       UQ                 0                            1                UQ                        0                   2
Bureau of Engraving and Printing                 UQ                 0                            0                UQ                        0                   0
Community Development
Financial Institutions Fund                      UQ                 0                            1                UQ                        0                   3
Office of DC Pensions                            UQ                 0                            1                UQ                        0                   0
Exchange Stabilization Fund                      UQ                 0                            1                UQ                        0                   1
Federal Financing Bank                           UQ                 0                            0                UQ                        0                   0
Office of the Comptroller of the
Currency                                         UQ                 0                            0                UQ                        0                   0
Office of Thrift Supervision                     UQ                 0                            0                UQ                        0                   0
Treasury Forfeiture Fund                         UQ                 0                            0                UQ                        0                   0
Mint
   Financial statements                          UQ                 0                            0                UQ                       0                    0
   Custodial gold and silver
   reserves                                      UQ                 0                            0                UQ                       0                    0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                               0                UQ                       0                    0
Government trust funds                        UQ                 0                               0                UQ                       0                    0
Financial Management Service
   Treasury-managed accounts                  UQ                 0                               1                UQ                       0                    1
   Operating cash of the federal
   government                                 UQ                 0                               1                UQ                       0                    1
Management-initiated audit
Financial Crimes Enforcement
Network                                          UQ                   0                           0               UQ                        0                   0
Alcohol and Tobacco Tax and
Trade Bureau                                     UQ                   1                           0               UQ                        2                   0
UQ           Unqualified opinion
Q            Qualified opinion due to omission of a required disclosure and misstatement of certain account balances in the financial statement notes
(A)          Audited by Government Accountability Office




The fiscal year 2010 audits of Treasury’s                                                 deficiencies. These audits were performed by
component entities and its special-purpose                                                KPMG LLP or other independent public
financial statements identified the following                                             accountants under our supervision.
material weakness and other significant


                             Treasury Office of Inspector General Semiannual Report—March 2011                                                              9
                                                           Office of Audit - Significant Audits and Other Products

Material Weakness                                                                            assets and investment securities.
                                                                                             (OIG-11-044)
     • The Alcohol and Tobacco Tax and                                                 • FMS information technology controls
           Trade Bureau’s controls over the review                                           over systems managed by FMS and
           of purchase requisitions. (OIG-11-051)                                            third parties. (OIG-11-034,
                                                                                             OIG-11-037)
Other Significant Deficiencies
                                                                                 In connection with the fiscal year 2010 financial
     • The Community Development Financial                                       statement audits, the auditors issued
           Institutions (CDFI) Fund’s controls                                   management letters on other matters involving
           over accounting and investments.                                      internal control to the Bureau of Engraving and
           (OIG-11-024)                                                          Printing (OIG-11-020), CDFI Fund
     • The Office of D.C. Pensions’ controls                                     (OIG-11-025), Federal Financing Bank
           over annuitant payment processing.                                    (OIG-11-022), Mint (OIG-11-043), OCC
           (OIG-11-050)                                                          (OIG-11-046), and OTS (OIG-11-053). In
                                                                                 addition, the auditors issued two sensitive but
     • The Exchange Stabilization Fund’s                                         unclassified management reports that detailed
           controls over accounting for                                          FMS’s significant deficiency related to IT
           movements in foreign currency values                                  controls over systems managed by it and third
           for other foreign currency denominated                                parties and recommended corrective actions.
                                                                                 (OIG-11-035, OIG-11-038)

The following instances of noncompliance with the Federal Financial Management Improvement Act of
1996, which all relate to IRS, were reported in connection with the audit of the Department’s fiscal year
2010 consolidated financial statements.

                                                                                                                            Type of
Condition                                                                                                                   noncompliance
Persistent deficiencies in internal control over information security remain uncorrected. As a result of these              Federal financial
deficiencies, IRS was (1) unable to rely upon these controls to provide reasonable assurance that its financial             management systems
statements are fairly stated in the absence of effective compensating procedures, (2) unable to ensure the reliability of   requirements
other financial management information produced by its systems, and (3) at increased risk of compromising
confidential IRS and taxpayer information. (first reported in fiscal year 1997)
Automated systems for tax related transactions did not support the net taxes receivable amount on the balance sheet         Federal accounting
and other required supplemental information related to uncollected taxes–compliance assessments and tax write-offs–         standards
in accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)


The status of these noncompliances, including progress in implementing remediation plans, will be
evaluated as part of the audit of the Department’s fiscal year 2011 consolidated financial statements.




                        Treasury Office of Inspector General Semiannual Report—March 2011                                                        10
                                          Office of Audit – Significant Audits and Other Products

Attestation Engagement                                  determined that Treasury’s information security
                                                        program was in place and was generally
KPMG LLP, working under our supervision,                consistent with FISMA.
issued an unqualified opinion that the Bureau of
the Public Debt (BPD) Trust Fund                        However, the KPMG LLP audit of Treasury’s
Management Branch’s assertions pertaining to            unclassified systems (except for those of IRS)
the schedule of assets and liabilities and related      found that additional steps are required to
schedule of activity of selected trust funds, as of     ensure that Treasury’s information security risk
and for the year ended September 30, 2010, are          management program and practices fully
fairly stated. These schedules relate to the            comply with applicable National Institute of
functions of the Trust Fund Management                  Standards and Technology standards and
Branch as custodian of the Federal                      guidelines and FISMA requirements.
Supplementary Medical Insurance Trust Fund,             Specifically, (1) account management activities
Federal Hospital Insurance Trust Fund,                  were not consistently performed as required by
Highway Trust Fund, Airport and Airway Trust            Treasury’s directive on information security,
Fund, Hazardous Substance Superfund Trust               (2) outsourcing the Information System Security
Fund, Leaking Underground Storage Tank                  Officer role created an IT governance concern
Trust Fund, Oil Spill Liability Trust Fund,             at FMS, (3) plans of actions and milestones
Harbor Maintenance Trust Fund, Inland                   were not updated timely and maintained at FMS
Waterways Trust Fund, and South Dakota                  and OCC, (4) security incidents were not
Terrestrial Wildlife Habitat Restoration Trust          reported timely at BPD and the Alcohol and
Fund. The attestation examination did not               Tobacco Tax and Trade Bureau, (5) reviews of
identify any significant deficiencies in internal       audit logs were not documented at BEP, (6) the
control or instances of reportable                      electronic media destruction process at FinCEN
noncompliance with laws and regulations.                was not fully compliant with its internal policies,
(OIG-11-017)                                            and (7) password settings were not properly
                                                        configured to lockout for a BPD system.
Information Technology
                                                        TIGTA reported that IRS was also generally
Fiscal Year 2010 Audit of Treasury’s Federal            consistent with FISMA requirements. However,
Information Security Management Act                     TIGTA noted that the IRS information security
Implementation for Its Unclassified Systems             program was not fully effective as a result of the
                                                        conditions identified in configuration
The Federal Information Security Management             management, security training, plans of action
Act (FISMA) requires each Inspector General             and milestones, identity and access
to perform an annual, independent evaluation            management, continuous monitoring
of their agency’s information security program          management, contingency planning, and
and practices. We contracted with KPMG LLP              contractor systems.
to perform an audit of FISMA compliance for
the Department’s unclassified systems with the          In addition, the General Accountability Office
exception of IRS. TIGTA performed the annual            (GAO) reported a continuing material weakness
evaluation for IRS. Based on the results                in IRS’s internal control over information
reported by KPMG LLP and TIGTA, we

                  Treasury Office of Inspector General Semiannual Report—March 2011                     11
                                           Office of Audit – Significant Audits and Other Products

security that resulted in IRS’s inability to rely on    Programs and Operations
the controls embedded in its automated
financial management systems. (OIG-11-023)              Failed Bank Reviews
                                                        OCC and OTS regulate and supervise most of
Fiscal Year 2010 Audit of Treasury’s FISMA              the nation’s largest banks and thrifts. OCC
Implementation for Its Collateral National              regulates national chartered banks, and OTS
Security Systems                                        regulates thrifts. 5
We performed the fiscal year 2010 audit of              In 1991, Congress enacted the Federal Deposit
Treasury’s FISMA implementation for its
                                                        Insurance Corporation Improvement Act
collateral national security systems, excluding
IRS systems. We found that Treasury’s                   (FDICIA). The law was enacted following the
information security program and practices for          failures of about a thousand banks and thrifts
Treasury’s non-IRS collateral national security         from 1986 to 1990. Amendments to FDICIA
systems are generally consistent with FISMA             included the addition of Section 38, Prompt
requirements but that improvements can                  Corrective Action, which requires federal
enhance its security program. Management                banking agencies to take specific supervisory
agreed with our findings and recommendations.           actions in response to certain circumstances. 6
Due to the sensitive nature of these systems,
this report has been designated Sensitive But           Section 38 of FDICIA also requires the
Unclassified. (OIG-11-005)
                                                        Inspector General for the primary federal
Treasury is Generally in Compliance with the            regulator of a failed financial institution conduct
                                                        a material loss review (MLR) when the
Executive Order on Computer Software Piracy
                                                        estimated loss to the DIF is “material.” An
Executive Order 13103, Computer Software                MLR requires that we determine the causes of
Piracy, directs executive agencies to work              the failure and assess the supervision of the
diligently to prevent and combat computer               institution, including the implementation of the
software piracy and to ensure that their policies,      Section 38 prompt corrective action provisions.
procedures, and practices are adequate and fully        Section 38 as amended by the Dodd-Frank Act,
implement the executive order.                          defines a material loss as a loss to the DIF that
                                                        exceeds $200 million for 2010 and 2011, $150
We determined that the Department was
generally in compliance with Executive
Order 13103, but that policy and procedures             5Pursuant to Dodd-Frank, the functions of OTS are to
could be improved to ensure compliance.                 be transferred to other federal banking agencies, including
                                                        OCC, on July 21, 2011, and OTS is to be abolished.
Management agreed with our findings and
recommendations.                                        6 Prompt corrective action is a framework of supervisory
(OIG-11-036)                                            actions for insured institutions that are not adequately
                                                        capitalized. It was intended to ensure that action is taken
                                                        when an institution becomes financially troubled in order
                                                        to prevent a failure or minimize resulting losses. These
                                                        actions become increasingly more severe as the institution
                                                        falls into lower capital categories. The capital categories
                                                        are well-capitalized, adequately capitalized,
                                                        undercapitalized, significantly undercapitalized, and
                                                        critically undercapitalized.


                  Treasury Office of Inspector General Semiannual Report—March 2011                             12
                                                   Office of Audit – Significant Audits and Other Products

million for 2012 and 2013, and $50 million for                   funding (e.g., brokered deposits, Federal Home
2014 and thereafter (with a provision to                         Loan Bank loans); risky lending products such
temporarily raise the threshold to $75 million in                as option adjustable rate mortgages; high asset
certain circumstances). Section 38 also requires                 concentrations; and inadequate risk
a review of all bank failures with losses under                  management systems. In addition, the
those threshold amounts for the purposes of                      management and boards of these institutions
(1) ascertaining the grounds identified by OCC                   were often ineffective. The economic recession
or OTS for appointing FDIC as receiver and                       and the decline in the real estate market were
(2) determining whether any unusual                              also factors in most of the failures.
circumstances exist that might warrant a more
in-depth review of the loss. This provision                      With respect to OCC’s and OTS’s supervision,
applies to bank failures from October 1, 2009,                   we found that both regulators conducted
forward. 7                                                       regular and timely examinations and identified
                                                                 operational problems, but were slow to take
From the beginning of the current economic                       timely and effective enforcement action. We
crisis in 2007 through March 31, 2011, FDIC                      also found that in assessing these institutions,
and other banking regulators closed more than                    examiners regularly gave too much weight to
350 banks and thrifts. Treasury was responsible                  profitability and performing loans and not
for regulating 101 of those institutions. Of the                 enough to the amount of risk these institutions
101 failures, 53 resulted in a material loss to the              had taken on. We also noted that regulators
DIF. In prior semiannual reports, we reported                    took the appropriate prompt corrective actions
on 21 MLRs completed during the current                          when warranted but those actions did not
crisis. During this semiannual reporting period,                 prevent a material loss to the DIF. We, with the
we did not complete any MLRs due to other                        FDIC OIG, are currently examining the general
priority work, including reviews related to the                  effectiveness of the prompt corrective action
transfer of OTS functions and Treasury’s                         provisions of FDICIA.
activities to stand up the CFPB. Accordingly, as
                                                                 Nonmaterial Loss Reviews
of the end of the reporting period, we still have
32 MLRs in progress. We are striving to                          During this semiannual reporting period, 11
complete these during calendar year 2011.                        OCC- or OTS-regulated financial institutions
                                                                 failed with losses below $200 million, the
As previously reported, from those MLRs that                     current threshold triggering an MLR. Our
we have completed, we have seen a number of                      required determinations as to whether any
trends emerge. With respect to the causes of                     unusual circumstances exist warranting a more
institution’s failures, we found poor                            in-depth review of the loss of any of these
underwriting and overly aggressive growth                        institutions is provided in the “Bank Failures
strategies fueled by volatile and costly wholesale               and Nonmaterial Loss Reviews” section of this
                                                                 report. With the exception of 1 of the 11
                                                                 institutions, we determined that there were no
7 Prior to the Dodd-Frank Act, an MLR was required if
loss to the DIF from a bank failure exceeded the greater         unusual circumstances surrounding the failures
of $25 million or 2 percent of the institution’s total assets.   or the supervision exercised by OTS and OCC,
There was also no requirement for us to review bank              so a more in-depth review of the failures by our
failures with losses less than this threshold.
                                                                 office was not warranted.

                     Treasury Office of Inspector General Semiannual Report—March 2011                         13
                                                Office of Audit – Significant Audits and Other Products

During the period, we issued 32 final audit                  were also to provide any additional
reports on our nonmaterial loss reviews,                     recommendations for an orderly and effective
consisting of 25 final audit reports on                      process.
institutions that failed in the prior semiannual
reporting period and 7 final audit reports on                We concluded that the Plan generally conforms
institutions that failed during this semiannual              to the provisions of sections 301 through 326 of
reporting period. A list of these final audit                Title III. However, we did report on an
reports is provided in the Statistical Summary               omission in the Plan. Specifically, the Plan does
section of this report. As of March 31, 2011, we             not address the prohibition against involuntary
had 4 nonmaterial audit reports in progress.                 separation or relocation of transferred OTS
                                                             employees for 30 months (except under certain
                                                             circumstances). The principals agreed with our
Other Performance Audits                                     recommendation to amend the Plan to address
Review of the Joint Implementation Plan for the              this requirement.
Transfer of Office of Thrift Supervision
Functions                                                    We also reported that, while not impacting our
                                                             overall conclusion on the Plan, certain details
We conducted a review with the FDIC OIG                      need to be worked out to ensure that OTS
and FRB OIG of the Joint Implementation Plan                 employees are not unfairly disadvantaged and an
prepared by the Board, FDIC, OCC, and OTS.                   orderly transfer of OTS powers, authority, and
The Plan details the steps the federal banking               employees can be effectively accomplished. For
agencies will take to implement the provisions               example, neither the number of employees to be
of Title III, Transfer of Powers to the Comptroller of the   transferred to OCC nor the assignment of
Currency, the Corporation, and the Board of Governors,       functions for those employees had been
of Dodd-Frank. Section 327 of Title III                      finalized. In addition, OTS officials expressed
mandated the preparation of the Plan and our                 concerns relating to (1) OCC’s assignment of
offices’ review.                                             individual employees and (2) additional OCC
                                                             certification requirements and a newly created
The objective of our review, as defined by                   pay band for certain transferring OTS
section 327, was to determine whether the Plan               examiners. Finally, we reported on several other
conforms to the provisions of sections 301                   matters associated with the transfer of OTS
through 326 of Title III, to include determining             functions, including an OTS pension fund,
whether it (1) sufficiently takes into                       savings association assessments, and financial
consideration the orderly transfer of personnel,             reporting by OTS. (OIG-11-064)
(2) describes procedures and safeguards to
ensure that OTS employees are not unfairly                   The Failed and Costly BSA Direct Retrieval and
disadvantaged relative to employees of OCC                   Sharing (R&S) System Development Effort
and FDIC, (3) sufficiently takes into                        Provides Important Lessons for FinCEN’s BSA
consideration the orderly transfer of authority              Modernization Program
and responsibilities, (4) sufficiently takes into
consideration the effective transfer of funds,               In 2004, FinCEN embarked on a major
and (5) sufficiently takes into consideration the            initiative, known as BSA Direct, to improve the
orderly transfer of property. As appropriate, we             usefulness and functionality of the BSA data


                    Treasury Office of Inspector General Semiannual Report—March 2011                       14
                                       Office of Audit – Significant Audits and Other Products

and transition the BSA data from the IRS. As          Direct R&S efforts, representing a significant
part of that effort, FinCEN awarded a contract        escalation from the nearly $9 million contract
to Electronic Data Systems Corporation to             initially awarded to Electronic Data Systems
design, develop, implement, and provide web           Corporation. To cover the additional contract
hosting and support for the retrieval and             and other costs of the project, FinCEN used
sharing component of the project, known as            funds from both the Treasury Forfeiture Fund
BSA Direct R&S. FinCEN terminated BSA                 and its fiscal years 2005 and 2006
Direct R&S in July 2006, after determining that       appropriations. To ensure FinCEN’s use of
the project had no guarantee of success. The          funds for the project were legal and appropriate,
total amount of funding expended on the failed        we requested an opinion from GAO. GAO
project was $17.4 million.                            concluded that FinCEN could legally draw on
                                                      fiscal year 2003 and 2004 appropriations to fund
Our audit concluded that the BSA Direct R&S           BSA Direct R&S, but had improperly charged
failed for a number of reasons. The primary           certain obligations to its fiscal year 2005 and
cause was poor project management. FinCEN             2006 appropriations in violation of the bona
allowed a personal services contractor who had        fide needs rule. (The bona fide needs rule
no information technology experience, project         provides that an appropriation or fund limited
management expertise, or authority, to usurp          for obligation to a definite period is available
the duties of the project manager and                 only for payment of expenses properly incurred
contracting officer. Also, FinCEN did not             during the period of availability or to complete
properly (1) monitor the BSA Direct R&S               contracts properly made within that period of
development effort, (2) obtain proper security        availability of the appropriation.) In accordance
clearances for contractors, and (3) maintain          with GAO’s conclusion, FinCEN adjusted its
contract records. FinCEN also did not report to       accounts and its 2004 and 2005 appropriations.
Treasury’s Office of Chief Information Officer
(OCIO) on the status of the project and               We recommended, that FinCEN (1) ensure that
Treasury’s OCIO did not actively oversee the          future system development projects, including
project.                                              its current BSA modernization project, are
                                                      properly planned and the necessary expertise for
In addition to poor planning for BSA Direct           project management is in place; (2) coordinate
R&S, FinCEN did not adequately coordinate             with Treasury’s OCIO concerning the current
with IRS or Treasury’s OCIO to determine              BSA modernization project as well as any future
whether this system was duplicative of IRS’s          information technology initiatives;
web-based Currency and Banking Retrieval              (3) coordinate with IRS for a consolidated
System. FinCEN also did not coordinate with           solution to meeting the data needs of its
IRS to develop a strategy for managing BSA            customers; (4) ensure that adequate contract
data and avoiding the duplication and added           and financial records are maintained for the
costs that occurred. Finally, FinCEN did not          current BSA modernization project to allow for
adequately determine functional requirements          audit and accurate reporting; and (6) assess the
or user needs prior to awarding the contract.         controls over its use of personal services
                                                      contracts to ensure that such contracts are
By the time FinCEN terminated the contract in         appropriate to its mission, and that individuals
July 2006, it had spent $17.4 million on BSA          hired under personal services contracts perform

                Treasury Office of Inspector General Semiannual Report—March 2011                   15
                                         Office of Audit – Significant Audits and Other Products

duties that are appropriate and within their           Other Reviews
expertise. We also recommended that Treasury’s
OCIO closely monitor the current BSA                   Treasury’s Activities to Establish the Consumer
modernization project to ensure that sound             Financial Protection Bureau
project management principles are followed.
                                                       Title X of the Dodd-Frank Act established
                                                       CFPB as an independent bureau within the
In its written response, FinCEN stated that it
                                                       FRB. The Secretary of the Treasury has the
has gone through many changes since the BSA
                                                       authority to conduct certain interim activities
Direct R&S effort, gained project management
                                                       related to CFPB’s establishment and exercise
expertise, and is under new leadership.
                                                       certain bureau authorities until a CFPB Director
According to FinCEN, it has implemented a
                                                       is confirmed by the Senate. On November 22,
number of management tools and techniques to
                                                       2010, Inspector General Thorson and FRB
ensure successful implementation of the current
                                                       Inspector General Coleman each received a
BSA modernization program. FinCEN stated
                                                       request from the then Ranking Members of the
that the problems experienced with BSA Direct
                                                       House Committee on Financial Services and its
R&S are not reflective of the current program.
                                                       Subcommittee on Oversight and Investigation
FinCEN further noted that it routinely
                                                       asking that we affirm our respective offices’
coordinates with Treasury OCIO, IRS, and
                                                       oversight role of CFPB until the bureau
OMB to ensure adequate oversight and
                                                       transfers to the FRB. The requests also asked
planning for the program. It also has restricted
                                                       that we provide information on a number of
the use of personal services contracts to
                                                       other matters related to transparency, CFPB’s
situations where no other contractual vehicle is
                                                       organizational structure, and CFPB’s regulatory
possible. In fact, FinCEN stated that it currently
                                                       agenda by January 10, 2011.
has no personal services contract and does not
anticipate one in the future.
                                                       In preparing our response, we and the FRB
                                                       OIG jointly (1) reviewed the applicable sections
An official with Treasury’s OCIO stated in a
                                                       of the Dodd-Frank Act and other relevant laws
written response that the office is closely
                                                       and (2) requested, obtained, and reviewed
monitoring major information technology
                                                       relevant information and documentation from
investments including the current BSA
                                                       Treasury and FRB. In addition, we interviewed
modernization program.
                                                       key Treasury officials including Professor
                                                       Elizabeth Warren, Assistant to the President
It is important to note that FinCEN’s senior
                                                       and Special Advisor to the Secretary of the
management team has changed since the BSA
                                                       Treasury on the CFPB; Treasury’s General
Direct R&S project was terminated and as we
                                                       Counsel; the Chief of Staff of the CFPB
noted in our report, it is not our intent to imply
                                                       Implementation Team; and others. We and the
that the problems experienced with BSA Direct
                                                       FRB OIG provided our joint response to the
R&S project are reflective of the current BSA
                                                       Chairmen and Ranking Members dated January
IT modernization effort. That said, we currently
                                                       10, 2011. (OIG-CA-11-004)
have an audit underway to assess BSA IT
modernization. (OIG-11-057)
                                                       We and the FRB OIG plan to continue
                                                       providing joint oversight of CFPB until such


                 Treasury Office of Inspector General Semiannual Report—March 2011                    16
                                       Office of Audit – Significant Audits and Other Products

time as the bureau transfers to the FRB and a
CFPB Director is confirmed.




                Treasury Office of Inspector General Semiannual Report—March 2011          17
                                                       was indicted by the U.S. District Court in the
Office of Investigations -                             Northern District of Texas for Conspiracy to
Significant Investigations                             Steal Government Funds. Additionally, the U.S.
                                                       Attorney’s Office issued seizure warrants for
Indictment and Sentencing in Fraudulent Check          five fraudulent Treasury Direct accounts which
Scheme                                                 resulted in the recovery of over $781,000.
                                                       Further judicial action is pending.
BPD informed our office that an individual in
New Bern, North Carolina, was creating and             Check Forgery Insurance Fund Initiative
passing fraudulent checks totaling
approximately $1 million. The individual               The Office of Investigations is currently
attempted to withdraw the funds from BPD’s             involved in a joint initiative with FMS in an
Treasury Direct Program while utilizing a BPD          effort to combat Treasury check fraud. This
bank routing number on each fraudulent check.          initiative’s primary focus is the Check Forgery
Treasury Direct is a web-based system that             Insurance Fund. The Fund, established in 1941,
allows investors to purchase a full range of           is a revolving fund administered by FMS to
Treasury securities through an online account.         settle claims of non-receipt of U.S. Treasury
                                                       checks. The purpose of the Fund is to ensure
As a result of our investigation, the individual       that the intended payees, whose checks were
was indicted in federal court during October           fraudulently negotiated, receive settlement in a
2010 on 16 counts of wire, bank, and mail fraud        timely manner. Since this initiative began in
violations. On March 14, 2011, the individual          August 2010, we have identified thousands of
appeared in U.S. District Court, Raleigh, North        investigative leads associated with the Fund.
Carolina, and pled guilty to 1 count of bank           The following cases highlight some of our Fund
fraud. Sentencing is scheduled for June 13,            investigations:
2011.
                                                       •   In September 2010, we initiated an
Individual Indicted in Fraudulent Tax Refund               investigation regarding a stolen Treasury
Scheme Utilizing Treasury Direct Accounts                  check in Maryland. The investigation
                                                           determined that a Treasury check in the
BPD informed our office of a possible multi-               amount of $674 was stolen and negotiated
million dollar IRS tax refund scheme involving             by a subject who resided in Hyattsville,
multiple subjects. The scheme involved opening             Maryland. Furthermore, the investigation
BPD Treasury Direct accounts with false                    revealed that the Treasury check was
identities and purchasing Treasury                         intended as Supplemental Security Income
bonds/securities with fraudulent tax refunds               payment for a disabled child, who was on a
deposited into those accounts.                             ventilator because of a debilitating illness.
                                                           We obtained and executed a Maryland State
In December 2010, OIG special agents                       arrest warrant which charged the subject
executed a Federal arrest warrant on a subject in          with numerous violations related to the
this scheme attempting to flee the country from            theft of the Treasury check. In January
the Dulles International Airport, Dulles,                  2011, the subject pled guilty to
Virginia. In January 2011, the arrested individual

                 Treasury Office of Inspector General Semiannual Report—March 2011                    18
                                            Office of Investigations – Significant Investigations

    misdemeanor theft in Prince George’s              thousands of dollars to a company, owned by a
    County District Court and was sentenced to        former Mint employee, in which the employee
    90 days incarceration, with 89 days               had a financial interest. The subject used two
    suspended and credit for a day as time            methods to direct the Mint to buy supplies from
    served. In addition, the subject was placed       the company. One was through the use of a
    on unsupervised probation for 1 year and          government-issued credit card, and the other
    ordered to pay restitution to the victim.         was through a requisition process whereby the
                                                      employee submitted requisitions that contained
•   In November 2010, we initiated an                 false representations that the Mint had a blanket
    investigation into the theft and subsequent       purchase agreement with the company for the
    deposit of a stolen Treasury check. Our           purchase of office supplies. The employee
    investigation substantiated that the subject      structured the purchases in the amount of
    stole the check from the mail, deposited it       $4,999 (which is one dollar less than the single
    into his personal checking account, and then      purchase limit) to avoid a competitive bidding
    withdrew the money for personal use.              process.
    Felony charges for theft, forgery, and
    issuing a false document were subsequently        In February 2011, the employee pled guilty in
    filed in Anne Arundel County, Maryland. In        U.S. District for the Eastern District of
    February 2011, the subject appeared in            Pennsylvania to five counts of mail fraud; five
    court and entered a guilty plea, and was          counts of wire fraud; five counts of conflict of
    sentenced to 1 year of supervised probation       interest; and four counts of making false
    and ordered to pay $100 in fines and court        statements. Sentencing is scheduled for May 26,
    costs.                                            2011, at which time the employee faces up to
                                                      245 years imprisonment and $4.7 million in
•   In December 2010, based on information            penalties.
    provided by FMS, we initiated an
    investigation against a claimant who              Conviction in OCC Burglary Investigation
    maintained that she had never received or
                                                      OCC’s field office in Charlotte, North Carolina,
    negotiated a Treasury check made out to her
                                                      was burglarized and an OCC laptop computer
    name in the amount of $4,443. Our
                                                      was stolen. OIG special agents identified and
    investigation determined that the claimant
                                                      interviewed a suspect who was in the custody of
    filed a false claim with FMS. She was
                                                      the Charlotte-Mecklenburg, North Carolina,
    subsequently charged in the District Court
                                                      Police Department on unrelated theft charges.
    for Baltimore City, Maryland, with 1 count
                                                      The suspect subsequently admitted to entering
    of felony theft. Judicial action is still
                                                      the OCC office space unlawfully and stealing
    pending.
                                                      the laptop computer.
Guilty Plea in Mint Procurement Fraud
                                                      In January 2011, the suspect was found guilty
We received an allegation from the Mint that an       on North Carolina state burglary and theft
employee engaged in the steering of small             violations related to the OCC theft. His
purchases of supplies totaling hundreds of            conviction served as the requisite predicate


                Treasury Office of Inspector General Semiannual Report—March 2011                     19
                                              Office of Investigations – Significant Investigations

offense for him to be sentenced under the               In February 2011, the contract employee pled
state’s habitual offender felony statute. Based         guilty to theft in Marion County, Indiana, and
upon the combination of this conviction, along          was sentenced to 1 year probation, and ordered
with his previous convictions, the subject was          to pay restitution to the Mint. In addition, the
sentenced to an incarceration of 20 to 24 years.        employee was terminated.

Suspect Surrenders in Fraud for Services                Supervisory Special Agent Indicted for
Investigation                                           Defrauding the Government

A joint investigation with the General Services         An investigation by our office determined that
Administration OIG and the Washington                   an OIG Supervisory Special Agent, who was
Metropolitan Police Department resulted in an           also a U.S. Marine Corps Reserve Officer,
individual surrendering after agents conducted a        knowingly and willfully defrauded the
search at locations frequented by the suspect.          government of salary, leave, retirement, and
The individual allegedly defrauded a real estate        other benefits from his civilian employment
leasing company, located in Washington, D.C.,           between May and October 2007 to which he
by entering into a 1 year lease for office space        was not entitled because he was in an active
by representing himself as being on the General         military duty status.
Services Administration Multiple Award
Schedule and a contractor for the Treasury              The supervisory special agent was indicted by a
Department. The investigation confirmed that            federal grand jury for embezzlement, wire fraud,
he was neither on the General Services                  and false statements related to the theft of pay
Administration Multiple Award Schedule nor a            and benefits from the Treasury Department. He
Treasury contractor. Subsequently, the                  was subsequently arrested and taken into
individual turned himself in to authorities at the      custody at his residence. In October 2010, the
Washington, D.C., Superior Court pursuant to            supervisory special agent entered into a deferred
an outstanding felony arrest warrant for first          prosecution agreement whereby he admitted to
degree theft.                                           and acknowledged his guilt, agreed to pay
                                                        restitution in the amount of $35,791, and
Subject Pled Guilty and Sentenced for Theft             resigned from federal service.
From the Mint
                                                        OCC Examiner Admits Misusing Government
We initiated an investigation based on                  Travel Card
information received from the Mint regarding
the possible compromise of customers’ credit            In November 2010, OCC informed us that a
card numbers by an employee of a Mint                   national bank examiner may have misused her
contractor. The investigation, which included a         government travel card on multiple occasions in
search warrant executed on the contractor               2009 and 2010 to obtain cash advances while
employee’s residence, revealed that the                 not on travel status, as well as cash advances
individual fraudulently purchased                       that exceeded reasonable amounts.
commemorative coins from the Mint using the
credit card numbers of a Mint customer.


                 Treasury Office of Inspector General Semiannual Report—March 2011                    20
                                               Office of Investigations – Significant Investigations

The investigation resulted in the examiner               inappropriately presented his badge and
admitting that she had used cash advances                credential to a local police officer and to a third
inappropriately. Our report of investigation was         party during a traffic incident. Although
referred to OCC for administrative action.               criminal prosecution was declined, the official
                                                         was issued a notice of proposed suspension,
Negligent Discharge of a Weapon by Mint                  prompting that official’s resignation from the
Police Officer                                           OCC in November 2010.

An investigation by our office into a shooting           Mint Responds to Management Implication
incident at the Philadelphia, Pennsylvania, Mint         Report - Update
facility determined that a Mint police officer
accidentally shot himself in the upper rear left         As previously reported, we issued a
leg with a personally owned pistol. The officer          Management Implication Report to the Mint
violated multiple Treasury and Mint directives
                                                         with four recommendations to improve the
by possessing and discharging an unauthorized
and unregistered firearm inside a Mint facility.         integrity of its Mutilated Coin Program. In
This matter was declined for criminal                    February 2011, the Mint informed us that they
prosecution by the U.S. Attorney’s Office and            concurred with all four recommendations to
the officer retired prior to administrative action       address vulnerabilities reported in our
by the Mint.                                             Management Implication Report. The Mint
                                                         advised that they would implement numerous
                                                         policy changes regarding the administrative
                                                         handling of mutilated coins to include
Following are updates to significant                     developing a standardized operating procedure
investigative activities reported in prior               to conduct inspections of incoming shipments
semiannual reports.                                      at the melting facility, redeeming only mutilated
                                                         coins, requiring additional information from
Acceptance of Gifts by OCC Examiner - Update             individuals and companies redeeming mutilated
                                                         coins prior to approving payment, and
As previously reported, an investigation by our          developing a legal certification on all forms used
office determined that a national bank examiner          in the Mutilated Coin Program to discourage
violated the Employee Standards of Conduct by            potential exploitation of the program.
accepting gratuities in the form of golf fees.
Although criminal prosecution was declined, the
examiner was given a 30-day unpaid suspension
for violating his ethical and professional
responsibilities as a bank examiner.

Misuse of Government-Issued Badge and
Credentials by an OCC Official - Update

As previously reported, an investigation by our
office determined that an OCC official


                 Treasury Office of Inspector General Semiannual Report—March 2011                        21
                                                       evaluate potential fraud vulnerabilities and to
Office of SBLF Program                                 investigate allegations of fraud and abuse.
Oversight                                              Efforts are also underway to contract for
                                                       external audit support to review the expenditure
Oversight of Small Business Lending Programs           of SSBCI funds by state agencies.

On September 27, 2010, the President signed            Oversight Activities to Date
into law the Small Business Jobs Act of 2010 to
help increase credit availability for small            We view our oversight role both prospectively
businesses. The act established the $30 billion        (to advise Treasury managers during program
SBLF to be used by Treasury to inject capital          development on issues relating to internal
into small and medium banks with incentives to         controls and oversight) and retrospectively (to
encourage them to increase their small business        evaluate program effectiveness and the
lending. It also created the SSBCI that provides       adequacy of Treasury’s oversight activities). We
Treasury with $1.5 billion to support state            also seek to promote transparency over
programs designed to increase access to credit         Treasury’s management and operation of the
for small businesses.                                  small business lending initiatives to ensure
                                                       accountability and to investigate cases of fraud,
To ensure proper oversight of the SBLF, the act        waste, and abuse in the SBLF and SSBCI
established the Office of SBLF Program                 programs.
Oversight within the Treasury OIG and
directed that a Special Deputy Inspector               Although we are still building the Office of
General be appointed to lead the office. The           SBLF Program Oversight, we have been
Office is responsible for all audit and                working to provide meaningful oversight and
investigative activities relating to the SBLF          fraud prevention advice to Treasury officials to
program and for recommending program                   mitigate risks and to ensure that problems are
improvements. Congress also directed that the          identified and corrected early in program
OIG audit participating states’ uses of SSBCI          implementation. To this end, the Special
funds, and required Treasury to recoup any             Deputy Inspector General and her staff meet
misused funds identified by the OIG audits.            weekly with SBLF and SSBCI program directors
                                                       and their staffs to discuss progress in program
Building the Office of SBLF Program Oversight          implementation, ongoing issues, and upcoming
                                                       developments. They also communicate regularly
In light of the importance of the small business       with staff from Treasury’s General Counsel to
lending initiatives to the nation’s economic           discuss legal and regulatory issues relating to the
recovery, the OIG quickly stood up the Office          SBLF and SSBCI programs. With respect to
of SBLF Program Oversight. A Special Deputy            specific activities and accomplishments during
Inspector General was appointed on                     the semiannual period, the Office has:
December 5, 2010, OIG auditors were detailed
to the new Office so that work could begin
immediately, and steps were taken to recruit and
                                                           • recommended that SBLF and SSBCI
                                                               program terms and agreements contain
hire senior counsel, auditors, and analysts. We
plan to use existing OIG investigative staff to                oversight language acknowledging the


                 Treasury Office of Inspector General Semiannual Report—March 2011                     22
                                                           Office of SBLF Program Oversight

   jurisdiction and authority of the OIG to                to coordinate audit and investigative
   have access to participant records and                  plans.
   loan files and to oversee program
   compliance;                                     Future Oversight Plans
• conducted a risk assessment of the small
                                                   To meet its responsibilities under the Act, the
   business lending initiatives to identify
                                                   Office has developed a risk-based oversight
   potential risks and vulnerabilities in
                                                   plan for monitoring, evaluating, and reporting
   program management and planning that
                                                   on Treasury’s implementation of the SBLF and
   could impede Treasury’s ability to
                                                   SSBCI programs. Risks were identified based on
   effectively oversee funded projects and         a review of program legislation and an
   meet statutory requirements;                    examination of vulnerabilities in program
• advised SBLF and SSBCI managers on               management and planning. In developing the
   the design of internal control;                 plan, the Office also considered reports of
• recommended that the SSBCI                       lessons learned from two TARP programs with
   application form be modified to include         similarities to SBLF—the Capital Purchase
   questions that would allow Treasury             Program and Community Development Capital
                                                   Initiative. Finally, congressional oversight
   officials to assess the capability of states
                                                   committees were consulted on activities to
   to adequately oversee program
                                                   target for oversight attention. Collectively these
   requirements, and at Treasury’s request,
                                                   efforts identified several areas for audit
   developed the recommended questions;
                                                   attention. The areas identified within SBLF
• worked collaboratively with SSBCI                program include:
   program managers to develop a matrix
   of SSBCI compliance requirements and                • refinancing of the Capital Purchase
   a joint oversight strategy for the SSBCI                Program and Community Development
   program;                                                Capital Initiative investments;
• initiated an audit of Treasury’s                     • eligibility determinations for matched
   investment decision process for SBLF                    funding;
   funding and progress in implementing
                                                       • quality of loan underwriting by
   the program;
                                                           participating institutions;
• participated in a Treasury-hosted
                                                       • accuracy of small business lending gains
   webinar with state agencies on the
                                                           supporting dividend rate reductions;
   SSBCI program to discuss the oversight
   role of the OIG and related plans for               • use of funds by SBLF participants and
   reviewing how states use allocated funds                the characteristics of institutions
   and oversee lender compliance with                      receiving funding; and
   program requirements; and                           • program impact on small business
• established lines of communication with                  lending and job creation.
   GAO and the OIGs at FRB and FDIC



             Treasury Office of Inspector General Semiannual Report—March 2011                     23
                                                              Office of SBLF Program Oversight

Areas within the SSBCI program targeted for
oversight will include:

   • expenditure of funds allocated to states
       (as directed by the Small Business Jobs
       Act);
   • adequacy of state oversight of program
       compliance requirements; and
   • accuracy of state reporting of program
       accomplishments.




                Treasury Office of Inspector General Semiannual Report—March 2011           24
                                                            European Delegation
Other OIG Accomplishments
and Activity                                                On January 25, 2011, the Inspector General and
                                                            senior management staff hosted a European
CIGIE Award Ceremony                                        delegation that was sponsored by the U.S. State
                                                            Department as part of the International Visitor
Treasury OIG staff were recognized with three               Leadership Program. The delegation included
prestigious Awards for Excellence at the Annual             16 visitors from both the public and private
Council of the Inspectors General on Integrity              sector representing 16 European countries. We
and Efficiency (CIGIE) Awards Ceremony held                 briefed the delegation on the mission, structure
on October 19, 2010. Honored were:                          and activities of our office as well as the how
                                                            the inspector general concept works throughout
•   a high impact audit that identified OTS’s               the U.S. Government.
    involvement in the inappropriate backdating
    of capital contributions by six thrifts (Audit
    Award for Excellence);
•   a joint FDIC OIG and Treasury OIG
    evaluation of the federal regulatory
    oversight of the failed Washington Mutual
    Bank; and
•   the exceptional officewide coordination
    within Treasury OIG to quickly staff up the
                                                            Pictured above are OIG executives with members of the
    Office of Audit to perform mandated
                                                            European delegation.
    reviews of failed banks.
                                                            OIG Audit Leadership Roles

                                                            Treasury OIG’s audit professionals actively
                                                            support and serve on various important public
                                                            and private professional organizations
                                                            supporting the federal audit community.
                                                            Examples of Treasury OIG Audit personnel
                                                            participation in these organizations follow:

Pictured above are Marla Freedman, Assistant Inspector
                                                            Marla Freedman, Assistant Inspector General
General for Audit; Kieu Rubb, Director, Procurement and     for Audit, serves as co-chair of the Federal
Manufacturing Audit; Mike Maloney, Director, Fiscal         Audit Executive Council’s Professional
Service Audit; Susan Barron, Director, Banking Audit; Bob   Development Committee which is actively
Taylor, Deputy Assistant Inspector General for Audit;       involved in auditor training and development
Dennis Schindel, Deputy Inspector General; and Joey         matters. Bob Taylor, Deputy Assistant
Maranto, Director, Audit Operations.                        Inspector General for Performance Audits, also
                                                            serves on this committee. As a notable
                                                            accomplishment during this semiannual

                    Treasury Office of Inspector General Semiannual Report—March 2011                               25
                                                            Other OIG Accomplishments and Activity

reporting period, the Committee facilitated the             Treasury Office of Inspector General Intranet
reestablishment of an Introductory Auditor                  Site-TIGnet
Training program for the Inspector General
community, which is being sponsored by the                  The Treasury Office of Inspector General
Department of Education OIG. Jeff Dye,                      Intranet Site (TIGnet), developed by OIG’s
Audit Director, regularly taught Introductory               Office of Management to provide a central
Auditor Course modules.                                     location to efficiently and effectively
                                                            disseminate information to all staff within the
Joel Grover, Deputy Assistant Inspector                     OIG, was launched on February 1, 2011.
General for Financial Management and                        TIGnet is based upon a Windows SharePoint
Information Technology Audits, serves as co-                2007 platform and serves as the official intranet
chair of the Federal Audit Executive Council’s              site for all the components within OIG. The
Financial Statements Committee which                        TIGnet site content will be maintained by the
develops and coordinates the council’s positions            respective components and constantly updated
on a variety of accounting and auditing issues              with internal announcements and notifications.
related to federal financial reporting. The                 Our office has begun establishing document
committee also jointly sponsored with the                   libraries, shared calendars, resource centers, and
Government Accountability Office an annual                  a technical helpdesk ticketing system. These
federal financial statement audit update                    new options have greatly improved the synergy
conference held on March 30, 2011.                          within our office by making information
Additionally, Mr. Grover serves as a co-chair of            centrally located and easily accessible to all OIG
the Maryland Association of Certified Public                staff members. Moving forward, the ultimate
Accountants Members in Government                           goal of TIGnet is to create a completely web-
Committee.                                                  based platform that will further encourage
                                                            collaboration and improve efficiency within our
                                                            organization using a commercial off-the-shelf
                                                            platform.




                                    Pictured above is our TIGnet home page.


                 Treasury Office of Inspector General Semiannual Report—March 2011                          26
Statistical Summary
Summary of OIG Activity
For the 6 months ended March 31, 2011

                                                                                            Number or
OIG Activity                                                                                Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                          0
Instances where information was refused                                                                     0
Office of Audit Activities
Reports issued and other products                                                                          65
Disputed audit recommendations                                                                              0
Significant revised management decisions                                                                    0
Management decision in which the IG disagrees                                                               0
Monetary benefits (audit)
Questioned costs                                                                                             0
Funds put to better use                                                                           $ 19,607,790
Revenue enhancements                                                                                         0
Total monetary benefits                                                                           $19,607,790

Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                           28
Cases accepted for prosecution and/or litigation                                                           13
Arrests                                                                                                     9
Indictments/informations                                                                                    2
Convictions (by trial and plea)                                                                             8




                        Treasury Office of Inspector General Semiannual Report—March 2011                   27
                                                                                       Statistical Summary

Significant Unimplemented Recommendations
For reports issued prior to April 1, 2010

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number            Date      Report Title and Recommendation Summary
OIG-06-030        05/06     Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                            Bank Secrecy Act Data but Challenges Remain
                            FinCEN should enhance the current FinCEN database system or acquire a
                            new system. An improved system should provide for complete and accurate
                            information on the case type, status, resources, and time expended in
                            performing the analysis. This system should also have the proper security
                            controls to maintain integrity of the data. (1 recommendation)


OIG-08-035        06/08     Network Security at the Office of the Comptroller of the Currency Needs Improvement
                            OCC should ensure that the principle of least privilege is enforced and
                            applied to all OCC computer users as required by OCC policy.
                            (1 recommendation)


OIG-09-024        1/09      General Management: Treasury Should Reactivate State-Held Federal Unclaimed Assets
                            Recovery Program (Corrective Action Verification on OIG-02-105)
                            Treasury should reactivate the state-held federal unclaimed assets recovery
                            program with appropriate policies, procedures, and controls. This
                            recommendation has a potential revenue enhancement monetary benefit of
                            $10.5 million. (1 recommendation) It should be noted that Treasury
                            management reported this recommendation as implemented in April 2011.


OIG-09-027        1/09      Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the
                            Currency’s Financial Statements
                            OCC should continue to dedicate resources to fully implement the necessary
                            System Management Server process automatically and promptly detect and
                            remove unauthorized personal and public domain software from OCC
                            systems (workstations) and implement controls to restrict users from
                            downloading and installing unapproved software. (1 recommendation)



                 Treasury Office of Inspector General Semiannual Report—March 2011                                28
                                                                                   Statistical Summary

OIG-CA-09-011 07/09    Information Technology: FY 2009 Evaluation of Treasury’s FISMA Implementation
                       for Its Intelligence Program
                       Due to the sensitive nature of the finding and recommendation, we
                       designated the report Limited Official Use. One recommendation in this
                       report has not been implemented. (1 recommendation)


OIG-10-001    10/09    Safety and Soundness: Material Loss Review of TeamBank, National Association
                       OCC should emphasize to examiners the need to: (1) adequately assess the
                       responsibilities of a controlling official (chief executive officer/president, for
                       example) managing the bank to ensure that the official’s duties are
                       commensurate with the risk profile and growth strategy of the institution;
                       (2) review incentive compensation and bonus plans for executives and loan
                       officers; and (3) ensure that banks conduct transactional and portfolio stress
                       testing when appropriate. (1 recommendation)


OIG-10-014    12/09    Management Letter for Fiscal Year 2009 Audit of the United States Mint’s Financial
                       Statements
                       The Mint should comply with their standard operating procedures by
                       properly reviewing the undelivered orders report and deobligating orders
                       that meet the criteria stated in the standard operating procedures.
                       (1 recommendation)


OIG-10-017    12/09    Safety and Soundness: Material Loss Review of Omni National Bank
                       OCC should implement a policy for examiner in charge rotation for midsize
                       and community banks. (1 recommendation)


OIG-10-025    12/09    Management Letter for Fiscal Year 2009 Audit of the Office of the Comptroller of the
                       Currency’s Financial Statements
                       OCC management should continue with its plan to implement a software
                       solution to restrict users from installing and executing unauthorized
                       software on OCC workstations. (1 recommendation)


OIG-10-035    2/10     Management Letter for Fiscal Year 2009 Audit of the Department of the Treasury
                       Financial Statements
                       The Chief Information Officer, with input from the Office of the Deputy
                       Chief Financial Officer, should implement the use of Secure Sockets Layer


             Treasury Office of Inspector General Semiannual Report—March 2011                                29
                                                                                           Statistical Summary

                               for the Treasury Department’s Information Executive Repository and
                               CFO Vision applications. (1 recommendation)



Summary of Instances Where Information Was Refused
October 1, 2010, through March 31, 2011

There were no such instances during this semiannual period. We reported in our prior semiannual report
that OIG was being denied unrestricted and unfettered access to information from OCC for use in
investigations of possible fraud upon OCC by individuals of failed OCC-regulated financial institutions.
Those requests for information were made pursuant to OIG's obligation to investigate issues relating to
Treasury's programs and operations, which include the national bank safety and soundness examinations
conducted by OCC, and attempts to interfere with or defraud those examinations. During this
semiannual period, we entered into a memorandum of understanding with OCC that provides for our
office to have the necessary access to information and personnel during the conduct of an investigation
or inquiry involving bank fraud that falls under our jurisdiction.



Listing of Audit Products Issued
October 1, 2010, through March 31, 2011

Financial Audits and Attestation Engagement
Audit of the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of September 30,
2010 and 2009, OIG-11-004, 10/21/10

Financial Management: Report on the Bureau of the Public Debt Trust Fund Management Branch Schedules for Selected
Trust Funds as of and for the Year Ended September 30, 2010, OIG-11-017, 11/5/10

Audit of Bureau of Engraving and Printing's Fiscal Years 2010 and 2009 Financial Statements, OIG-11-019,
11/12/10

Management Letter for Fiscal Year 2009 Audit of the Bureau of Engraving and Printing's Financial Statements,
OIG-11-020, 11/12/10

Audit of the Federal Financing Bank's Fiscal Years 2010 and 2009 Financial Statements, OIG-10-021, 11/12/10

Management Letter for Fiscal Year 2010 Audit of the Federal Financing Bank's Financial Statements, OIG-11-022,
11/12/10



                   Treasury Office of Inspector General Semiannual Report—March 2011                                30
                                                                                           Statistical Summary

Audit of the Community Development Financial Institutions Fund's Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-024, 11/15/10

Management Letter for Fiscal Year 2010 Audit of the Community Development Financial Institutions Fund’s Financial
Statements, OIG-11-025, 11/15/10

Audit of the Department of Treasury's Fiscal Years 2010 and 2009 Financial Statements, OIG-11-031, 11/15/10

Audit of the Financial Management Service's Fiscal Years 2010 and 2009 Schedules of Non-Entity Government-Wide
Cash, OIG-11-034, 11/17/10

Management Report for the Audit of the Financial Management Service's Fiscal Years 2010 and 2009 Schedules of
Non-Entity Government-wide Cash, (Sensitive But Unclassified), OIG-11-035, 11/17/10

Audit of the Financial Management Service's Fiscal Years 2010 and 2009 Schedules of Non-Entity Assets, Non-
Entity Costs and Custodial Revenue, OIG-11-037, 11/18/10

Management Report for the Audit of the Financial Management Service’s Fiscal Years 2010 and 2009 Schedules of
Non-Entity Assets, Non-Entity Costs and Custodial Revenue (Sensitive But Unclassified), OIG-11-038, 11/18/10

Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years 2010 and 2009,
OIG-11-039, 11/19/10

Audit of the United States Mint’s Fiscal Years 2010 and 2009 Financial Statements, OIG-11-042, 12/3/10

Management Letter for the Audit of the United States Mint’s Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-043, 12/3/10

Audit of the Exchange Stabilization Fund's Fiscal Years 2010 and 2009 Financial Statements, OIG-11-044,
12/6/10

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-045, 12/7/10

Management Letter for the Audit of the Office of the Comptroller of the Currency's Fiscal Years 2010 and 2009
Financial Statements, OIG-11-046, 12/7/10

Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-048, 12/8/10

Audit of the Financial Crimes Enforcement Network's Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-049, 12/15/10


                   Treasury Office of Inspector General Semiannual Report—March 2011                             31
                                                                                          Statistical Summary

Audit of the Office of D.C. Pensions’ Fiscal Years 2010 and 2009 Financial Statements, OIG-11-050, 12/15/10

Audit of the Alcohol and Tobacco Tax & Trade Bureau’s Fiscal Years 2010 Financial Statements and 2009 Balance
Sheet, OIG-11-051, 12/17/10

Audit of the Office of Thrift Supervision's Fiscal Years 2010 and 2009 Financial Statements, OIG-11-052,
12/17/10

Management Letter for the Audit of the Office of Thrift Supervision's Fiscal Years 2010 and 2009 Financial
Statements, OIG-11-053, 12/17/10

Management Letter for Audit of the Department of the Treasury's Fiscal Years 2010 and 2009 Financial Statements,
OIG-11-061, 2/24/11

Information Technology Audits and Evaluations
Fiscal Year 2010 Audit of Treasury’s Federal Information Security Management Act Implementation for Its Collateral
National Security Systems, OIG-11-005, 10/21/10

Information Technology: The Department of Treasury Federal Information Security Management Act Fiscal Year 2010
Audit, OIG-11-023, 11/12/10

Information Technology: Treasury is Generally in Compliance With Executive Order 13103, OIG-11-036, 11/17/10

Performance Audits – Reviews of Failed Banks Pursuant to Section 987 of the Dodd-
Frank Act
Safety and Soundness: Failed Bank Review of MainStreet Savings Bank, FSB, OIG-11-001, 10/13/10 (closed
July 16, 2010; estimated loss to the DIF - $11.4 million)

Safety and Soundness: Failed Bank Review of First Federal Bank of North Florida, OIG-11-002, 10/15/10
(closed April 16, 2010; estimated loss to the DIF - $6 million)

Safety and Soundness: Failed Bank Review of Home Federal Savings Bank, OIG-11-003, 10/18/10 (closed
November 6, 2009; estimated loss to the DIF - $5.4 million)

Safety and Soundness: Failed Bank Review of Key West Bank, OIG-11-006, 10/25/10 (closed March 26, 2010;
estimated loss to the DIF - $23.1 million)

Safety and Soundness: Failed Bank Review of Independent National Bank, OIG-11-007, 11/2/10 (closed on
August 20, 2010; estimated loss to the DIF - $23.2 million)



                   Treasury Office of Inspector General Semiannual Report—March 2011                             32
                                                                                     Statistical Summary

Safety and Soundness: Failed Bank Review of First National Bank, Savannah, Georgia, OIG-11-008, 11/2/10
(closed on June 25, 2010; estimated loss the DIF - $68.9 million)

Safety and Soundness: Failed Bank Review of First National Bank, Rosedale, Mississippi, OIG-11-009, 11/3/10
(closed June 4, 2010; estimated loss to the DIF -$12.6 million)

Safety and Soundness: Failed Bank Review of Beach First National Bank, OIG-11-010, 11/3/10 (closed April 9,
2010; estimated loss to the DIF - $130.3 million)

Safety and Soundness: Failed Bank Review of Community National Bank of Bartow, OIG-11-011, 11/3/10
(closed August 20, 2010; estimated loss to the DIF $10.3 million)

Safety and Soundness: Failed Bank Review of Williamsburg First National Bank, OIG-11-012, 11/3/10 (closed
July 23, 2010; estimated loss to the DIF - $8.8 million)

Safety and Soundness: Failed Bank Review of Southern Colorado National Bank, OIG-11-013, 11/4/10 (closed
October 2, 2009; estimated loss to the DIF - $6.6 million)

Safety and Soundness: Failed Bank Review of Marshall Bank, National Association, OIG-11-014, 11/5/10
(closed January 29, 2010; estimated loss to the DIF - $4.1 million)

Safety and Soundness: Failed Bank Review of Bay National Bank, OIG-11-015, 11/5/10 (closed July 9, 2010;
estimated loss to the DIF - $17.4 million)

Safety and Soundness: Failed Bank Review of American National Bank, OIG-11-016, 11/5/10 (closed March
19, 2010; estimated loss to the DIF - $17.1 million)

Safety and Soundness: Failed Bank Review of Valley Capital Bank, N.A., OIG-11-018, 11/8/10 (closed
December 11, 2009; estimated loss to the DIF - $7.4 million)

Safety and Soundness: Failed Bank Review of Woodlands Bank, OIG-11-027, 11/15/10 (closed July 16, 2010;
estimated loss to the Deposit Insurance Fund (DIF) - $115 million)

Safety and Soundness: Failed Bank Review of Imperial Savings and Loan Association, OIG-11-028, 11/15/10
(closed August 20, 2010; estimated loss to the DIF - $3.5 million)

Safety and Soundness: Failed Bank Review of First National Bank of the South, OIG-11-029, 11/16/10 (closed
July 16, 2010; estimated loss to the DIF - $74.9 million)

Safety and Soundness: Failed Bank Review of Home National Bank, OIG-11-030, 11/16/10 (closed July 9,
2010; estimated loss to the DIF - $78.7 million)



                 Treasury Office of Inspector General Semiannual Report—March 2011                            33
                                                                                    Statistical Summary

Safety and Soundness: Failed Bank Review of Los Padres Bank, OIG-11-032, 11/16/10 (closed August 20,
2010; estimated loss to the DIF - $8.7 million)

Safety and Soundness: Failed Bank Review of The La Coste National Bank, OIG-11-033, 11/16/10 (closed
February 19, 2010; estimated loss to the DIF -$3.7 million)

Safety and Soundness: Failed Bank Review of Maritime Savings Bank, OIG-11-040, 11/30/10 (closed
September 17, 2010; estimated loss to the DIF - $83.6 million)

Safety and Soundness: Failed Bank Review of Granite Community Bank, N.A., OIG-11-041, 12/2/10 (closed
May 28, 2010; estimated loss to the DIF - $17.3 million)

Safety and Soundness: Failed Bank Review of BC National Banks, OIG-11-047, 12/8/10 (closed April 30,
2010; estimated loss to the DIF - $11.4 million)

Safety and Soundness: Failed Bank Review of Security Savings Bank, FSB, OIG-11-054, 12/22/10 (closed
October 15, 2010; estimated loss to the DIF - $82.2 million)

Safety and Soundness: Failed Bank Review of Ideal Federal Savings Bank, OIG-11-055, 12/29/10 (closed July 9,
2010; estimated loss to the DIF - $2.1 million)

Safety and Soundness: Failed Bank Review of First Arizona Savings, FSB, OIG-11-056, 1/3/11 (closed
October 22, 2010; estimated loss to the DIF - $32.3 million)

Safety and Soundness: Failed Bank Review of First Suburban National Bank, OIG-11-058, 2/24/11 (closed
October 22, 2010; estimated loss to the DIF - $30.9 million)

Safety and Soundness: Failed Bank Review of Community National Bank, OIG-11-059, 2/24/11 (closed
December 17, 2010; estimated loss to the DIF - $3.7 million)

Safety and Soundness: Failed Bank Review of United Americas Bank, National Association, OIG-11-060, 2/24/11
(closed December 17, 2010; estimated loss to the DIF - $75.8 million)

Safety and Soundness: Failed Bank Review of The Bank of Miami, N.A., OIG-11-062, 3/3/11 (closed on
December 17, 2010; estimated loss to the DIF - $64 million)

Safety and Soundness: Failed Bank Review of The First National Bank of Barnesville, OIG-11-063, 3/22/11
(closed October 22, 2010; estimated loss to the DIF - $33.9 million)




                 Treasury Office of Inspector General Semiannual Report—March 2011                        34
                                                                                            Statistical Summary

Other Performance Audits
The Failed and Costly BSA Direct R&S System Development Effort Provides Important Lessons for FinCEN’s BSA
Modernization Program, OIG-11-057, 1/5/11

Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions, OIG-11-064,
3/28/11

Supervised Contract Audit
Contract Audit: Crane & Co.’s Price Proposal in Response to Solicitation No. BEP-10-0001, OIG-11-026,
11/15/10, $19,607,790 S

Other Product
Joint Response by the Inspectors General of the Department of the Treasury and Board of Governors of the Federal
Reserve System to a Congressional Request for Information Related to the Consumer Financial Protection Bureau,
OIG-CA-11-004, 1/4/11



Audit Reports Issued With Questioned Costs
October 1, 2010, through March 31, 2011

At the beginning of the period, there were no audit reports from prior periods pending a management
decision on questioned costs. There were also no audit reports issued during this period with questioned
costs.




                   Treasury Office of Inspector General Semiannual Report—March 2011                               35
                                                                                                                              Statistical Summary

Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
October 1, 2010, through March 31, 2011

                                                                           Total
                                                                           No. of                                                     Revenue
Category                                                                   Reports             Total               Savings            Enhancement
For which no management decision had been made by beginning
of reporting period                                                                       0                0                   0                                   0
Which were issued during the reporting period                                             1      $19,607,790         $19,607,790                                   0
   Subtotals                                                                              1      $19,607,790         $19,607,790                                   0
For which a management decision was made during the reporting
period                                                                                    0                   0                  0                                 0
   Dollar value of recommendations agreed to by management                                0                   0                  0                                 0
   Dollar value based on proposed management action                                       0                   0                  0                                 0
   Dollar value based on proposed legislative action                                      0                   0                  0                                 0
   Dollar value of recommendations not agreed to by
   management                                                                             0                   0                  0                                 0
For which no management decision was made by the end of the
reporting period                                                                          1      $19,607,790         $19,607,790                                   0
For which no management decision was made within 6 months of
issuance                                                                                  0                   0                  0                                 0
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took actions to implement and complete the
recommendation including: (1) reduction in outlays, (2) de-obligations of funds from programs or operations, (3) costs not incurred by implementing recommended
improvements related to operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract agreements, (5) any other savings which are
specifically identified, or (6) enhancements to revenues of the federal government..




Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
There are no previously issued audit reports pending management decisions for the reporting period.



Significant Revised Management Decisions
October 1, 2010, through March 31, 2011

There were no significant revised management decisions during the period.




                          Treasury Office of Inspector General Semiannual Report—March 2011                                                                       36
                                                                                 Statistical Summary

Significant Disagreed Management Decisions
October 1, 2010, through March 31, 2011

There were no management decisions this period with which the IG was in disagreement.



Peer Reviews
October 1, 2010, through March 31, 2011

Office of Audit

Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every 3
years. The objective of an external peer review is to determine whether, during the period under review,
the audit organization’s system of quality control was suitably designed and whether the audit
organization was complying with its quality control system in order to provide the audit organization
with reasonable assurance that it was conforming to applicable professional standards.

No external peer reviews were conducted of the Treasury OIG Office of Audit during this semiannual
period. The date of the last external peer review of the Treasury OIG was November 19, 2009, and was
conducted by the Department of State OIG. Treasury OIG received a peer review rating of pass. There
are no outstanding recommendations from this external peer review. A copy of the Department of State
OIG’s external peer review report is available on our website at www.treasury.gov/about/organizational-
structure/ig/Documents/Treasury%20OIG%20Peer%20Review%20Final%202009.pdf.

No external peer reviews of another federal audit organization were conducted by our office during this
semiannual reporting period. There are no outstanding recommendations from the previous peer review
conducted by our office. That peer review was conducted on the National Aeronautics and Space
Administration OIG’s audit organization and was completed June 30, 2010.

Office of Investigations

The CIGIE has mandated that the investigative law enforcement operations of all Offices of Inspector
General (OIG) undergo peer reviews every 3 years in order to ensure compliance both with (1) CIGIE's
investigations quality standards and with (2) the relevant guidelines established by the Office of the
Attorney General for the United States. In March 2011, the Small Business Administration's OIG
conducted a peer review of our office and found our office to be in compliance with all relevant
guidelines. There are no unaddressed recommendations outstanding from this review.

In January 2011, Treasury OIG conducted a peer review of the OIG for the Department of the Interior.
Our review found the Department of the Interior's Office of Investigations to be in compliance with all


                  Treasury Office of Inspector General Semiannual Report—March 2011                   37
                                                                              Statistical Summary

relevant guidelines. There are no unaddressed recommendations outstanding from our January 2011
review.




                Treasury Office of Inspector General Semiannual Report—March 2011                 38
Bank Failures and Nonmaterial Loss Reviews
We conducted reviews of 11 failed banks with losses to the DIF that did not meet the definition of a
material loss in the Federal Deposit Insurance Act. These reviews were performed to fulfill the
requirements found in Section 987 of the Dodd-Frank Act. As redefined in the Dodd-Frank Act, the
term “material” loss which, in turn, triggers a material loss review to be performed is, for 2010 and 2011,
a loss to the DIF that exceeds $200 million; for 2012 and 2013, a loss to the DIF that exceeds $150
million; and, for 2014 going forward, a loss to the DIF that exceeds $50 million (with provisions to
increase that trigger to a loss that exceeds $75 million under certain circumstances).

For losses that are not material, Section 987 requires that each 6-month period, the Office of Inspector
General of the federal banking agency to (1) identify the estimated losses that have been incurred by the
DIF during that 6-month period and (2) determine the grounds identified by the failed institution’s
regulator for appointing the FDIC as receiver, and whether any unusual circumstances exist that might
warrant an in-depth review of the loss. For each 6-month period, we are also required to prepare a
report to the failed institutions’ regulator and the Congress that identifies (1) any loss that warrants an
in-depth review, together with the reasons why such a review is warranted and when the review will be
completed; and (2) any losses where we determine no in-depth review is warranted, together with an
explanation of how we came to that determination. The table below fulfills this reporting requirement to
the Congress for the 6-month period ended March 31, 2011. We issue separate audit reports on each
review to the responsible Treasury regulator, OCC or OTS.

Bank Failures and Nonmaterial Loss Reviews

                                   Date
                                   Closed/Loss                                                                Reason/
                                   to the                                                                     Anticipated
                                   Deposit              OIG Summary of                        In-Depth        Completion Date of
                                   Insurance            Regulator’s Grounds                   Review          the In-Depth
Bank Name/Location                 Fund                 for Receivership                      Determination   Review
Regulator – Office of the Comptroller of the Currency
The First National Bank of          October 22, 2010    • Dissipation of assets or earnings   No              No unusual circumstances noted.
Barnesville                         $33.9 million         due to unsafe and unsound                           However, our review revealed
Barnesville, Georgia                                      practices                                           certain questionable transactions
                                                        • Unsafe and unsound condition                        that were referred by our auditors
                                                                                                              to the OIG Office of Investigation.
First Suburban National Bank       October 22, 2010     • Dissipation of assets or earnings   No              No unusual circumstances noted
Maywood, Illinois                  $30.9 million          due to unsafe and unsound
                                                          practices
                                                        • Unsafe and unsound condition
The Bank of Miami, N.A.            December 17, 2010    • Dissipation of assets or earnings   No              No unusual circumstances noted
Coral Gables, Florida              $64 million            due to unsafe and unsound
                                                          practices
                                                        • Unsafe and Unsound condition
United Americas Bank, N.A.         December 17, 2010    • Dissipation of assets or earnings   No              No unusual circumstances noted
Atlanta, Georgia                   $75.8 million          due to unsafe and unsound
                                                          practices
                                                        • Capital impaired
Community National Bank            December 17, 2010    • Dissipation of assets or earnings   No              No unusual circumstances noted
Lino Lakes, Minnesota              $3.7 million           due to unsafe and unsound
                                                          practices
                                                        • Unsafe and unsound condition




                          Treasury Office of Inspector General Semiannual Report—March 2011                                                39
                                                                        Bank Failures and Nonmaterial Loss Reviews

Bank Failures and Nonmaterial Loss Reviews

                                    Date
                                    Closed/Loss                                                                 Reason/
                                    to the                                                                      Anticipated
                                    Deposit             OIG Summary of                          In-Depth        Completion Date of
                                    Insurance           Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location                  Fund                for Receivership                        Determination   Review
Canyon National Bank                February 11, 2011   • Dissipation of assets or earnings     No              No unusual circumstances noted
Palm Springs, California            $10 million           due to unsafe and unsound
                                                          practices
                                                        • Unsafe and unsound condition
First National Bank of Davis        March 11, 2011      • Assets are less than obligations to   Yes             Unusual circumstances
Davis, Oklahoma                     $26.5 million         creditors                                             identified; estimated completion
                                                        • Dissipation of assets or earnings                     date is March 2012
                                                          due to unsafe and unsound
                                                          practices
                                                        • Unsafe and unsound condition
                                                        • Capital impaired
                                                        • Violations of laws and regulations
Regulator – Office of Thrift Supervision
Security Savings Bank FSB            October 15, 2010   • Capital impaired                      No              No unusual circumstances noted
Olathe, Kansas                       $82.8 million      • Failed to submit acceptable capital
                                                          restoration plan
                                                        • Board of directors consented to
                                                          appointment of receiver
First Arizona Savings               October 22, 2010    • Capital impaired                      No              No unusual circumstances noted
Scottsdale, Arizona                 $32.3 million       • Failed to submit acceptable capital
                                                          restoration plan
                                                        • Board of directors consented to
                                                          appointment of receiver
Appalachian Community Bank          December 17, 2010   • Capital impaired                      No              No unusual circumstances noted
McCaysville, Georgia                $26 million         • Board of directors consented to
                                                          appointment of receiver
                                                        • Assets are less than obligations to
                                                          creditors
San Luis Trust Bank FSB             February 18, 2011   • Capital impaired                      No              No unusual circumstances noted
San Luis Obispo, California         $96.1 million       • Failed to submit acceptable capital
                                                          restoration plan
                                                        • Assets are less than obligations to
                                                          creditors




                           Treasury Office of Inspector General Semiannual Report—March 2011                                                40
References to the Inspector General Act
                                                             Requirement                                                        Page
Section 4(a)(2)    Review of legislation and regulations                                                                             27
Section 5(a)(1)    Significant problems, abuses, and deficiencies                                                                  8-21
Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and deficiencies                                  8-21
Section 5(a)(3)    Significant unimplemented recommendations described in previous semiannual reports                             28-30
Section 5(a)(4)    Matters referred to prosecutive authorities                                                                       27
Section 5(a)(5)    Summary of instances where information was refused                                                                30
Section 5(a)(6)    List of audit reports                                                                                          30-35
Section 5(a)(7)    Summary of significant reports                                                                                  8-21
Section 5(a)(8)    Audit reports with questioned costs                                                                               35
Section 5(a)(9)    Recommendations that funds be put to better use                                                                   36
Section 5(a)(10)   Summary of audit reports issued before the beginning of the reporting period for which no management              36
                   decision had been made
Section 5(a)(11)   Significant revised management decisions made during the reporting period                                         36
Section 5(a)(12)   Management decisions with which the IG is in disagreement                                                         37
Section 5(a)(13)   Instances of unresolved FFMIA noncompliance                                                                       10
Section 5(a)(14)   Results of peer reviews conducted of Treasury OIG by another OIG                                               37-38
Section 5(a)(15)   List of outstanding recommendations from peer reviews                                                          37-38
Section 5(a)(16)   List of peer reviews conducted by Treasury OIG, including a list of outstanding recommendations from those     37-38
                   peer reviews
Section 5(d)       Serious or flagrant problems, abuses, or deficiencies                                                           N/A
Section 6(b)(2)    Report to Secretary when information or assistance is unreasonably refused                                       30




                   Treasury Office of Inspector General Semiannual Report—March 2011                                                   41
Abbreviations
BPD            Bureau of the Public Dept
BSA            Bank Secrecy Act
CDFI           Community Development Financial Institutions
CFPB           Consumer Financial Protection Bureau
CIGFO          Council of Inspectors General for Financial Oversight
CIGIE          Council of the Inspectors General on Integrity and Efficiency
DIF            Deposit Insurance Fund
Dodd-Frank     Dodd-Frank Wall Street Reform and Consumer Protection Act
FDICIA         Federal Deposit Insurance Corporation Improvement Act
FDIC           Federal Deposit Insurance Corporation
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act
FMS            Financial Management Service
FRB            Board of Governors of the Federal Reserve System
FSOC           Financial Stability Oversight Council
GAO            Government Accountability Office
IRS            Internal Revenue Service
IT             information technology
MLR            material loss review
MSB            money services businesses
OCC            Office of the Comptroller of the Currency
OCIO           Office of Chief Information Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
OTS            Office of Thrift Supervision
Recovery Act   American Recovery and Reinvestment Act of 2009
R&S            Retrieval and Sharing
SBLF           Small Business Lending Fund
SSBCI          State Small Business Credit Initiative
TARP           Troubled Asset Relief Program
TIGnet         Treasury Office of Inspector General Intranet Site
TIGTA          Treasury Inspector General for Tax Administration




                Treasury Office of Inspector General Semiannual Report—March 2011   42
Magnolias in bloom on the west side of the Treasury Building in Washington, DC
         

     
            contact us
                                        
    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Small Business Lending Fund
    1500 Pennsylvania Avenue, N.W.
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    799 9th Street, N.W., 8th Floor
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
                                           Treasury OIG Hotline
    740 15th Street, N.W., Suite 510       Call Toll Free: 1.800.359.3898
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418                    Treasury OIG Web Page
    Office of Management
    740 15th Street, N.W., Suite 510       OIG reports and other information are now available via the
    Washington, D.C. 20220                 Internet. The address is
    Phone: (202) 927-5200;
                                           http://www.treasury.gov/about/organizational-
    Fax: (202) 927-6492                    structure/ig/Pages/default.aspx  

    Eastern Field Audit Office
    408 Atlantic Avenue, Room 330
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax (617) 223-8651
